                        U.S. Department of Agriculture

                           Office of Inspector General




               Audit Report

Agreed-Upon Procedures – Farm Service Agency
   Average Crop Revenue Election Program,
         Sheridan County, Montana




                            Report No. 03099-199-KC
                                     December 2010
                               U.S. Department of Agriculture
                                Office of Inspector General
                                  Washington, D.C. 20250


DATE:          December 10, 2010

AUDIT
NUMBER:        03099-199-KC

TO:            Michael T. Scuse
               Deputy Under Secretary
                for Farm and Foreign Agricultural Services

ATTN:          Jonathan W. Coppess
               Administrator
               Farm Service Agency

FROM:          Gil H. Harden         /s/
               Assistant Inspector General
                for Audit

SUBJECT:       Agreed-Upon Procedures – Farm Service Agency Average Crop Revenue
               Election Program, Sheridan County, Montana


This report presents the results of the Agreed-Upon Procedures performed on the Farm Service
Agency’s (FSA) implementation of the Average Crop Revenue Election Program (ACRE) in
Sheridan County, Montana, in 2009. This report contains no recommendations and, therefore, no
further action by the Farm Service Agency is required.

We determined whether allegations that the Sheridan County FSA Office provided incorrect
program information to producers about ACRE could be substantiated and whether alleged
misinformation may have influenced producers to erroneously sign up for ACRE. We also
reviewed how the ACRE signup register was implemented and whether it was administered by
the county office according to procedures.

The review included such tests of program and accounting records as considered necessary to
meet the review objective. This engagement to apply the Agreed-Upon Procedures was
performed in accordance with applicable government auditing standards and statement of
standards for attestation engagements established by the American Institute of Certified Public
Accountants.

If you have any questions, please contact me at (202) 720-6945, or have a member of your staff
contact Ernest M. Hayashi at (202) 720-2887.

Attachment
FSA Average Crop Revenue Election Program, Sheridan County,
Montana
Executive Summary
We have performed the procedures described in Exhibit A which were agreed to by the Office of
Inspector General, the Farm Service Agency (FSA), and the Office of the Under Secretary for
Farm and Foreign Agricultural Services. This review addresses the allegations raised by several
producers enrolled in the Average Crop Revenue Election Program (ACRE) in Sheridan County,
Montana.
ACRE provides an alternative revenue-based safety net to the Direct and Counter-Cyclical
Payment Program’s (DCP) existing price-based safety net for crop years 2009 through 2012. To
enroll, producers must first irrevocably elect ACRE on a farm-by-farm basis. Producers who
elect to participate in ACRE agree to forgo counter-cyclical payments. Additionally, they agree
that FSA will reduce their direct payments by 20 percent and their marketing assistance loan
rates by 30 percent. Loan deficiency payment (LDP) rates for ACRE producers are thus
calculated by reducing the marketing assistance loan rate by 30 percent before subtracting the
posted county price. 1

In Sheridan County, Montana, 27 producers enrolled in ACRE by the August 14, 2009, deadline.
An additional 36 producers were placed on a signup register. Those placed on the register were
allowed until September 30, 2009, to complete applications for sign up. By the end of
September 2009, the price of durum wheat had dropped significantly, triggering LDPs for durum
wheat, the main crop in Sheridan County, Montana. For the first time in several years, producers
were eligible to receive LDPs on durum wheat. However, in light of the LDPs being triggered
for durum wheat, most producers realized that the program’s 30-percent reduction in loan rates
meant that they could only receive significantly reduced LDPs, if any at all. Only 3 of the 36
producers utilized the register to enroll in ACRE, one of whom appealed his ACRE election. Of
the 27 Sheridan County producers who enrolled in ACRE by the August 14, 2009, deadline, 23
appealed to rescind or to reverse their ACRE enrollment. FSA estimated that it could be at risk
to provide relief up to $2.7 million.2


1
  Marketing assistance loans are marketing tools available to producers beginning upon harvest. For farmers who
forgo the use of marketing assistance loans, loan deficiency payments rules apply. County and regional loan rates
are based on each commodity’s national loan rate and vary by county or region, and are based on the average prices
and production of the county or region where the commodity is stored.
The LDP payment rate equals the amount by which the applicable loan rate exceeds the posted county price for the
respective commodity. The LDP amount equals the LDP rate times the quantity of the commodity for which the
LDP is requested.
The posted county price is the local market price established by the Commodity Credit Corporation. Posted county
prices are announced daily for wheat, feed grains, and soybeans; and weekly for other oilseeds.
2
 This amount is based upon the number of acres of durum wheat planted on the enrolled ACRE farms in 2009 in
Sheridan County and assumes that relief could be granted in the form of cancelled ACRE contracts and/or producers
being allowed to qualify for an LDP for which they would have been entitled if they were not in ACRE.
In late September 2009, ACRE producers alleged that the register was not used consistently or
equitably because some producers were allowed to extend the deadline by 45 days while others
were not informed of this option. According to Notice DCP-220, “Using Register for DCP
Enrollment and ACRE Election and Enrollment,” dated July 27, 2009, a producer may request
that a farm be placed on the register when the county office cannot schedule an appointment to
elect and/or enroll in ACRE on or before August 14, 2009, due to workload, computer, or other
county office-related issues. Additionally, in the Montana State FSA Office Memo DCP-012,
“DCP and ACRE Register,” dated May 12, 2009, the State office permitted the use of the
register to allow producers more time to acquire signatures of landowners. Nevertheless, Notice
DCP-220, “Using Register for DCP Enrollment and ACRE Election and Enrollment,” dated July
27, 2009, stated the register cannot be used to circumvent the deadline. However, producers
claimed that those on the register used the extra time (between August 14 and September 30) to
observe market trends, including the falling price of durum wheat, and make a more informed
decision.

Additionally, after the LDPs were triggered, several producers claimed that Sheridan County
FSA Office staff gave incorrect information regarding ACRE’s LDP calculations. These
producers claimed that both in meetings with the program technician and in the informational
meetings held by FSA on February 26 and 27, 2009, and March 2, 2009, by Montana State
University’s Extension Service, they were told that if they enrolled in ACRE, their direct
payments would be reduced by 20 percent, their marketing assistance loan rate by 30 percent,
and their LDP rates by 30 percent. They additionally claimed they were told they would
forgo their counter-cyclical payments. Thus, rather than the actual 30-percent reduction in
loan rate, producers thought they would receive LDPs which would be reduced by 30 percent.
On December 8, 2009, the program technician wrote to the Sheridan County FSA Committee,
stating that she provided incorrect information to Sheridan County producers and that she also
did not provide the CCC-509 Appendix, dated April 29, 2009, to ACRE enrollees at the time of
their enrollment. 3 On January 4, 2010, AGWEEK published an article highlighting the concerns
of producers in Sheridan County who claimed they were misinformed.

We worked with FSA at the Headquarters level to develop agreed-upon procedures in order to
determine the facts and circumstances surrounding FSA’s implementation and administration of
ACRE in Sheridan County, Montana. Specifically, we reviewed how the ACRE signup register
was implemented and whether it was administered by the county office according to procedures.
We also determined whether allegations that the Sheridan County FSA Office provided incorrect
program information to producers about ACRE could be substantiated and whether alleged
misinformation may have influenced producers to erroneously sign up for ACRE.

Between February and October 2010, we reviewed background information regarding the alleged
misinformation, FSA Handbooks, Federal Register, Code of Federal Regulations, FSA Notices,
State and county office employee emails, and ACRE and LDP appeal requests. We also
reviewed CCC-509 contracts, appendices to the CCC-509, archived LDP and PCP rates, the
register for DCP enrollment and ACRE election, and county office correspondence regarding


3
 CCC-509 Appendix, “Appendix to Form CCC-509, Direct and Counter-Cyclical Program (DCP) Contract or
Average Crop Revenue Election (ACRE) Program Contract,” dated April 29, 2009.
ACRE appeals. We also interviewed State and county office employees, producers, and
Montana State University Extension Service employees.

Alleged Abuse of ACRE Signup Register

To address claims that the register in Sheridan County was used inappropriately, we
interviewed 12 of the 36 producers placed on the register and determined that 8 of the
12 producers were not aware of being placed on the register, nor did they request to be. The
program technician admitted during her interview that she placed producers on the register
without their knowledge. Further, the program technician placed producers with uninitiated 4
contracts on the register, which is in violation of Montana State FSA Office’s Memo DCP-012,
“DCP and ACRE Register,” dated May 12, 2009. While the program technician claimed that
many producers were placed upon the register in order to allow time to secure necessary
signatures from landowners, our review disclosed that 24 of the 36 producers on the register
either had power of attorney or were landowners themselves and thus could have signed the
application. The program technician informed two of the producers we interviewed that they
could have until September 30, 2009, to decide whether to enroll, so long as they ensured that
they did not obtain all signatures before the August 14, 2009, deadline.

Alleged Misinformation by the County Office Program Technician

Based on our interviews with the program technician assigned to ACRE, ACRE producers,
producers placed on the register, county office employees, and county office employees in
surrounding counties, we could not substantiate the program technician’s assertions made to the
State office and county committee that she misinformed producers. In the course of our
interview, the program technician admitted that she herself drafted appeal letters to be submitted
to FSA, which she provided to producers, including the extension agent. Those appeal letters
claim that the program technician misinformed producers and the county office misused the
register. We interviewed a total of 21 producers enrolled in ACRE, including 18 of the 24
producers who appealed their ACRE election and 3 producers who did not appeal their ACRE
election. Of the 21 ACRE producers interviewed, 16 stated that the program technician did not
misinform them prior to or at the time of enrollment. Further, we could not corroborate the
claims of the five producers who maintained that they were misinformed. Additionally, one of
these five producers has withdrawn his appeal to rescind or to reverse his ACRE enrollment.

Additionally, the program technician’s treatment of the CCC-509 Appendix, dated April 29,
2009, was inconsistent. Though another program technician in the county office provided her
with amended appendices in time to distribute before the August 14, 2009, deadline, the program
technician for ACRE claimed that the documents were thrown out. Further, while the program
technician initially claimed in the letter to the county committee that she did not provide the
appendix to any producers at the time of enrollment, our review of producers’ ACRE files
disclosed that two producers dated and initialed the amended appendix on the date of their


4
  According to FSA, the term “initiating” refers to the process of entering the ACRE contract into the computer
system. A contract is “initiated” when signature dates are entered into the computer system. An “initiated” contract
is therefore one which has been started but not completed. “Uninitiated” contracts have not been started.
enrollment, proving at least two producers were in possession of the appendix. 5 When presented
with this information, the program technician modified her claim, informing us that she did not
always provide producers with the appendix at the time of enrollment but sent them in the mail at
a later date. In the course of interviewing the program technician, she gave responses directly
contradictory to evidence obtained during our review and often times at odds with her prior
assertions. Only after being shown direct evidence contradicting her initial statement did she
recant her previous responses and provide a voluntary sworn statement.

Alleged Misinformation at FSA Informational Meetings

We could not substantiate producers’ (including the extension agent’s) claims that they were
misinformed at two FSA informational meetings held 6 months before the decision date, on
February 26 and 27, 2009, and at an informational meeting directed by Montana State
University’s Extension Service on March 2, 2009. We obtained evidence through our email
review and interviews that contradicts producers’ claims that these informational meetings
provided misinformation regarding how LDPs were to be calculated for ACRE producers. While
the county executive director claimed in our interview that she was asked in the first meeting if
LDP payments would be reduced like direct payments and loan rates, she claimed to have
answered that she did not believe so but would check with the State office for clarification. After
emailing the State office, she received the response: “The loan rate for the farm is reduced by
30% so that would affect the LDP rate.” This message was then forwarded to all county office
staff, including the program technician. Therefore the program technician and all county office
staff who presented at the informational meetings had access to the correct information. We
have confirmed this through email review. For subsequent meetings, the county executive
director, district director, county committee members, and Montana State University professors
present do not remember a question or response explaining how LDPs would be affected for
ACRE enrolled producers.

We did not perform an audit with the objective to express an assessment of the internal control
structure or compliance with applicable laws, regulations, and procedures as a whole. This
engagement to apply the agreed-upon procedures was performed in accordance with applicable
government auditing standards and statement of standards for attestation engagements
established by the American Institute of Certified Public Accountants. The sufficiency of the
procedures is solely the responsibility of FSA. Consequently, we make no representations
regarding the procedures described either for the purpose for which this report has been
requested or for any other purpose.

The Agreed-Upon Procedures performed and the facts obtained associated with each procedure
performed are detailed in exhibit A.




5
  Regardless of whether or not producers received the CCC-509 Appendix, dated April 29, 2009, at the time of
enrollment, producers certified in the application that they had received and understood the contents of the CCC-509
Appendix, dated April 29, 2009. The Appendix is not required to be attached or filed in the producer’s file.
       Exhibit A: Procedures Performed and Results

  I.          Obtain county committee meeting minutes, and track dates of county committee’s discussion
              and approval of the ACRE contract.

              Our review of the minutes from July 8, 2009, through February 10, 2010, disclosed that the
              county committee approved nine ACRE contracts on August 4, 2009, but did not document
              discussion. We also found that the county executive director and/or acting county executive
              director approved all other ACRE contracts.

 II.          Obtain a step-by-step explanation of county office employee responsibilities when each
              producer comes in to sign up for ACRE. Where are these procedures documented? Were
              those steps documented and performed for each ACRE contract/participant?

              Because these employees stated to us that they followed the procedures in Handbook 1-DCP
              Revision 3, “Direct and Counter-Cyclical Program and Average Crop Revenue Election for
              2009 and Subsequent Crop Years,” dated July 24, 2009, we did not find it necessary to
              obtain verbal step-by-step explanations from each county office employee on their
              responsibilities when each producer came into the office to sign up for ACRE. While the
              program technician disregarded a litigation hold and failed to attach initiated contract
              reports to the register (see result IV.1), nothing came to our attention during the course of
              our review to indicate that the Sheridan County FSA Office staff did not follow FSA
              Handbook 1-DCP Revision 3, “Direct and Counter-Cyclical Program and Average Crop
              Revenue Election for 2009 and Subsequent Crop Years,” dated July 24, 2009, for producers
              that signed up for ACRE.

III.          ACRE FILE REVIEWS - Determine the following for each of the approved ACRE contracts
              in Sheridan County:

                  1. The date the initial application was received.

                      The initial applications were received from July 23, 2009, to August 21, 2009. 6

                  2. Dates of the interviews with FSA staff and whom.

                      Because program procedures did not require appointments and interviews with
                      producers to be documented if they signed up with ACRE before the deadline, we
                      were unable to determine the exact dates of interviews with ACRE producers.
                      Likewise, due to a lack of documentation, we were unable to determine the exact
                      dates of interviews with the three producers who signed up after the deadline. Our
                      interviews with Sheridan County producers and county office staff disclosed that


       6
           The three producers who enrolled from the signup register enrolled on August 17, 20, and 21, 2009.
               producers only met with the program technician assigned to ACRE to discuss the
               program, sometimes on more than one occasion.

           3. The date the contract was signed by the producer and the county office, etc.

               Producers enrolled in ACRE signed their contracts from July 23 to August 21, 2009. 7
               Our review also disclosed that the contracts were approved by the county committee
               and/or county executive director from August 4 to August 31, 2009.

           4. If the appropriate documents were signed for each participant in ACRE to make the
              ACRE participation valid.

               We determined all producers enrolled in ACRE signed the form to make ACRE
               participation valid, namely Form CCC-509, “Direct and Counter-Cyclical Program
               (DCP) Contract and Average Crop Revenue Program (ACRE) Contract”, dated
               April 16, 2009. 8

           5. If the correct appendix was used and attached to each signed ACRE contract.

               Our review disclosed that two contracts had only the first page of the correct,
               amended appendix, which was initialed and dated on the day of application. 9 The
               correct appendix was not attached to any other signed ACRE contract that we
               reviewed. However, this was not a requirement.

           6. If the agency followed the prescribed procedures for approving ACRE contracts.

               The Sheridan County FSA Office staff followed FSA Handbook 1-DCP revision
               3, “Direct and Counter-Cyclical Program and Average Crop Revenue Election for
               2009 and Subsequent Crop Years,” and did not implement any additional
               requirements for approving ACRE contracts.




7
    The three producers who enrolled from the signup register enrolled on August 17, 20, and 21, 2009.
8
  The CCC-509 Appendix, dated April 29, 2009, was not necessary to make the ACRE contract valid. However, by
signing the contract the producer certified to have received and agreed to the contents of the appendix. One ACRE
contract for one farm did not have the appropriate signature. A landowner mistakenly signed for a farm without
having power of attorney for his wife. However, the landowner completed all other ACRE contracts for his farms
appropriately. Further, all other contracts were properly signed and valid.
9
  This contradicts the program technician’s initial claim from her letter to the county committee that she did not
provide any producers with the correct, amended form CCC-509 ACRE Appendix at the time of enrollment. She
later modified this statement.
IV.   Register Review

         1. Determine when the applicants on the register initially submitted applications.

            The three producers who enrolled in ACRE from the register submitted applications
            on August 17, 20, and 21, 2009. The applications for the producers on the register
            who did not enroll were printed out but not initiated into the computer system.
            Montana State FSA Office Memo DCP-012, “DCP and ACRE Register,” dated May
            12, 2009, requires that program technicians attach initiated contract reports to the
            register to ensure all applications were already underway by the August 14 deadline.
            However, the Sheridan County program technician failed to do so. Because the
            program technician admitted to shredding these applications after printing them, we
            cannot ascertain whether these contracts were signed. Shredding the applications
            was a direct violation of the litigation hold placed on FSA (AS-2157 Keepseagle v.
            Schafer), which stipulates that FSA staff were not to shred or otherwise destroy any
            documents. The notice clearly states that all FSA employees and contractors (at
            county, State, and national offices) are covered by this litigation hold and shall, until
            further notice, not destroy written documents of any sort.

         2. Determine when the applicants on the register visited the county office to discuss the
            ACRE contracts with the county office staff.

            Based on our review of the register, producers phoned or called the office on
            August 14, 2009, and requested to be placed on the ACRE signup register. Review of
            the register also disclosed that the producers were shown as being given an
            appointment date to complete their ACRE signup. However, there was no
            information available in the ACRE files to determine the exact date that producers
            initially met with county office staff or if they made their appointments to complete
            their ACRE signup. Further, we are unable to determine the accuracy of the register.
            For example, one producer listed on the register as calling at 7:30 am on August
            14, 2009, did not remember calling on that day. Rather, in our interview, he claimed
            to have spoken with the program technician several days before the deadline, which
            the program technician supported in our interview with her.

         3. Determine when the applicants on the register were provided information and by
            which program technician.

            According to the register and our interviews, the program technician was the
            sole point of contact for producers. As noted on the register, producers had
            appointments from August 17 until August 28, 2009. However, due to lack of
            documentation, we were unable to verify whether each producer met with her on the
            designated date and what, if any, information was provided. While the register
            documents appointment times for each producer, at least 8 of these appointments
            were not kept as 8 of the 12 producers we interviewed did not know they had been
            placed on the ACRE signup register nor did they remember receiving an appointment
            date.
        4. Determine when and how the applicants got on the register.

             The program technician placed all producers on the register on August 14, 2009.
             However, we determined that at least two producers were informed about the ACRE
             signup register before the last day of ACRE signup by the program technician. 10
             Based on the register, of the 36 producers placed on the register, 22 producers
             telephoned the office and 14 producers made office visits on August 14, 2009.
             According to the register, the 36 producers were given an appointment date after
             August 14, 2009, to complete ACRE signup. Of the 12 producers on the register that
             we interviewed, 4 producers requested to be placed on the register. However, 8
             of the 12 producers did not know they had been placed on the register.

        5. Determine the reason for each applicant being on the register.

             Notice DCP-220, “Using Register for DCP Enrollment and ACRE Election and
             Enrollment,” dated July 27, 2009, states that a producer may request that a farm be
             placed on the register only when the county office cannot schedule an appointment to
             elect and/or enroll ACRE or DCP on or before August 14, 2009, due to workload,
             computer, or other county office-related issues. Additionally, in Montana State FSA
             Office Memo DCP-012, “DCP and ACRE Register,” dated May 12, 2009, the State
             office permitted the use of the register to allow producers more time to acquire
             signatures of landowners. According to the program technician and review of the
             ACRE signup register, the ACRE applicants were placed on the register because they
             needed additional signatures from land owners and had already expressed an interest
             in ACRE.

        6. Determine the legitimacy of being on the register.

             While Notice DCP-220, “Using Register for DCP Enrollment and ACRE Election
             and Enrollment,” dated July 27, 2009, states that use of the register to circumvent the
             deadline is not permitted, according to interviews with three producers, the program
             technician claimed that they could use the extended deadline to defer their decision
             on whether to enroll in ACRE. The program technician confirmed that she placed
             other producers on the register without their knowledge because she claimed they
             expressed an interest in obtaining signatures from landowners, but the producers had
             not completed the ACRE signup. However, 24 of the producers on the register either
             were landowners or had power of attorney for their farms. Further, in one instance,
             the program technician urged the producer not to have his landowner sign the
             contract in order to allow him more time to make a decision (see result VI).


10
   During our email review, we discovered an email from a county producer, who is a key member of the Montana
Grain Growers Association, which explained that the ACRE signup register was made available around August
7, 2009, before August 14, the date the register was supposed to become available; therefore, producers who signed
up before that date were not informed of the possibility of delaying completion of paperwork. The producer thus
claims that the program was “unevenly applied.”
                7. Determine if any of the producers on the register had power of attorney for the
                   landowners or were owner-operators and could have signed up for the program and
                   were instead placed on the register.

                    We determined that 14 producers were owner-operators for 19 farms. Further,
                    20 producers had power of attorney for 39 farms. Of the 36 producers on the
                    register, 24 producers were either owner-operators or had power of attorney. 11

                8. Determine whether any county or State office employees or committee members are
                   on the register, and if so why.

                    No county or State office employees or committee members were on the ACRE signup
                    register. However, a county committee member informed us that the program
                    technician asked him if he would like to be placed on the ACRE signup register
                    before the ACRE signup deadline of August 14, 2009.

                    Determine whether there was any documented followup by the county office to get
                    producers to the office to sign contracts.

                    While the program technician claimed that a reminder notice was mailed out to each
                    producer listed on the register, there was no documentation in the ACRE files that
                    disclosed that reminder cards were mailed out to producers. Further, there was no
                    documentation of any followup by the county office. Moreover, the fact that the
                    program technician destroyed documentation in ACRE producer files limited our
                    review.

                    Determine which program technician processed their applications.

                    The program technician assigned to ACRE processed all ACRE applications.

V.          Email Reviews – Review all State office email messages to the county office and county
            office email messages or other available documented communications between the county
            office and any producers with signed contracts or the extension agent, as well to other third
            parties conveying information on ACRE as to the apparent misinformation on the ACRE
            contract. (That is, email messages dated January 1, 2009, to date.) Determine whether there
            appears to be any apparent coordination, communication, and possible collusion/conspiracy
            between the State office, the Sheridan County FSA Office program technician (or any other
            county office employee), and/or the extension agent.

            We obtained and reviewed State office staff, district director, and the Sheridan County FSA
            Office staff emails dating from January 1, 2009, through March 18, 2010. Specifically,
            review of the emails disclosed that the Sheridan County program technician assigned to
            ACRE drafted an appeal letter and forwarded the letter to her brother (a program technician
            for another program in the Sheridan County FSA Office). The email advised her brother of

     11
          Ten producers were both owner-operator and had power of attorney.
           the major points that producers would want to discuss with the county committee concerning
           misinformation and withdrawing from ACRE to receive LDPs. The email specifically
           referenced two producers. Our review disclosed that one of the producers mentioned in the
           email had submitted to the Sheridan County FSA Committee a verbatim copy of an appeal
           letter that the program technician had provided. This producer provided a sworn statement
           confirming that he received the letter from the program technician and that, despite the
           letter’s claims to the contrary, he had not been misinformed about the LDP rate being
           reduced by 30 percent at the time of enrollment or at any informational meeting. During our
           interview with the program technician, she admitted that she had provided this sample
           appeal letter to additional producers in the county office. 12

           The program technician also admitted to providing the extension agent (who is also a
           producer appealing his ACRE signup) with an appeal letter in addition to the appeal letter
           she circulated to producers in the office. Further, the program technician and the county
           extension agent confirmed that they corresponded via email. During our interviews, the
           program technician stated that she wanted to keep the county extension agent informed about
           what was happening with the ACRE situation. We also discovered an email chain between
           the program technician and the county extension agent in which the program technician
           thanked the county extension agent, stating, “[…] looks like we got some action in DC
           already cuz I am having to work up numbers. So, maybe tomorrow morning will work on the
           LDP requests ok.” During our interview with the county extension agent, we noticed that he
           had a stack of emails from the program technician. However, our review of official emails
           between the program technician and county extension agent only disclosed one email
           exchange. We determined that the program technician was communicating with the county
           extension agent via her personal email account. We asked the county extension agent to
           forward us any emails that the program technician sent him concerning the ACRE situation.
           However, the email correspondence that the extension agent forwarded consisted of only two
           emails which appeared altered. The email chain did not disclose who sent and received the
           email and the second email was missing the subject line.

VI.        Interviews – Interview a sample of producers on the register that did not sign up for ACRE to
           determine what information they did or did not get, when, from whom, and the circumstances
           that prevented them from a timely signup for ACRE.

           Of the 12 producers interviewed from the register, 8 did not know they were placed on the
           register. Of these 12 producers interviewed, we determined that 6 producers listed on the
           register had enrolled in ACRE: 3 producers had enrolled some of their farm units on or
           prior to the August 14 deadline, but had additional farm units to possibly enroll. The other

      12
        In the course of our interview, after being presented with the producers’ statements that they had not been
      misinformed, the program technician recanted her claim in her letter to the county committee in which she alleged
      that she had misinformed all producers. She rather estimated that she may have misinformed approximately
      20 percent of the producers that were claiming misinformation. However, only two of the producers which she
      specified by name were among the five producers maintaining their claims of misinformation. The program
      technician had written an appeal letter for one producer and had directed the other producer to the State office for
      more information (see result VII).
       three producers subsequently utilized the register to enroll after the August 14 deadline; two
       of these producers did not know that they were placed on the register.
       Nine of the 12 producers that we interviewed and were listed on the register did not utilize
       the register to sign up for ACRE. (These nine producers included the six producers who
       were on the register but did not enroll, and the three producers that had enrolled some of
       their farm units on or prior to the August 14 deadline.) According to our interview with the
       program technician, the program technician informed them that they could use the additional
       time to decide whether to enroll in ACRE

       The six producers who elected not to enroll farms into ACRE using the register were
       unaware that they were even placed on the register. And two of these six producers stated
       that they did not complete their enrollment because the LDPs had been triggered, resulting
       in larger LDPs from FSA.

       Our review disclosed that one of the six producers who elected not to enroll farms into ACRE
       using the register was informed about the existence of an ACRE signup register before the
       deadline by the program technician. Additionally, in an email to the county executive
       director, this producer stated that he called into the county office a couple of days before the
       deadline to inform the program technician that he would be in on August 14 to make his
       decision on signing up for ACRE. During our interview, this producer claimed that the
       program technician informed him that she could place his name on the register because she
       knew that he was busy with harvest and he could come into the county office to sign up for
       ACRE when it rained. The producer further stated in another email to the county executive
       director that the program technician informed him that if he left one signature off on the
       ACRE paperwork that he could have until September 30 to finalize the paperwork and make
       his final decision on ACRE; it was his understanding that producers who signed ACRE
       contracts before August 7, 2009, were not informed of this option.

       Another producer (from this group of six producers) stated that the program technician
       claimed that, if placed on the register, he could consider whether or not to enroll in ACRE.
       The program technician also informed this producer to ensure that the owners did not sign
       the ACRE contracts and send them into the county office, or the farm would be enrolled in
       ACRE.

       A third producer (from this group of six producers) informed us that he was at a local
       restaurant and producers were talking about the ACRE signup register. The producers at
       the restaurant advised this producer to get on the register in order to have more time to
       decide. This producer stated that he had no intention of enrolling in ACRE but followed the
       producers’ advice to get on the register. The producer also informed us that when he
       stopped by the county office, he spoke with the program technician to ensure that placing
       himself on the register was not equivalent to enrolling in ACRE. The program technician
       informed this producer that he had until September 30, 2009, to get signatures and decide
       whether or not to enroll in ACRE.

VII.   Interview a sample of producers with approved ACRE contracts to determine what
       information, and from whom, was provided as to the basis of reduction of LDP versus loan
        rate. When these producers signed the contract were they aware that they also certified that
        they understood and agreed with the conditions and terms of the CCC-509 Appendix? (This
        sampling should be structured to include contracts processed by all county employees and
        should include at least the following: the former State committee member and extension
        agent, both of whom allege misinformation and are requesting relief from their ACRE
        contracts.)

        We interviewed a total of 21 producers with approved ACRE contracts, including the
        extension agent and a former State committee member. Our interviews disclosed that 16 of
        the 21 producers interviewed stated that they were not misinformed by the program
        technician assigned to ACRE prior to or at the time they signed their ACRE contracts.
        However, five of the ACRE producers that we interviewed claimed that they were
        misinformed at or sometime before signup. Two of these five producers included a former
        State committee member and the extension agent who, from experience, would have known
        who to contact to retrieve the correct information. A third producer claimed that the
        program technician had written out how to calculate an LDP and provided the form appeal
        letter as proof of the misinformation provided by the program technician. The program
        technician also admitted to writing an appeal letter for the fourth of the five producers. The
        fifth producer has withdrawn his request for relief from his ACRE contract.

        Though in our interviews, producers claimed that they did not receive the Appendix at the
        time of enrollment, all contracts required the producers to sign that they had (1) received
        Appendix CCC-509, (2) agreed to abide by the terms therein, (3) agreed to comply with the
        regulations governing the applicable program and payment eligibility and limitation
        provisions, (4) acknowledged and agreed that DCP and ACRE and benefits under DCP and
        ACRE were subject to changes based upon change in applicable statute, and (5) certified to
        the accuracy of the information set out in this form. Because no producers contested that
        they had signed the contract, thus certifying their agreement to and awareness of these
        conditions, we did not take further steps to determine whether they were aware of the
        conditions.

VIII.   Interview the extension agent as to the origin of the apparent misinformation provided to the
        ACRE contract producers and whether he had any contacts with the county office program
        technician (or any other county office employee) as to the apparent misinformation. Review
        documents the extension agent had used, and made available to others on ACRE and the
        source(s) of that information.

        The county extension agent stated that misinformation was provided to ACRE contract
        producers at the three public meetings that were conducted on February 26 and 27, and also
        on March 2, 2009. The extension agent claimed that he asked FSA staff if the 30-percent
        reduction included the LDP at all three meetings and the FSA staff responded affirmatively.

        However, while the county executive director claimed in our interview that she was asked in
        the first meeting if LDP payments would be reduced like direct payments and loan rates, she
        claimed to have answered that she did not believe so but would check with the State office for
        clarification. After emailing the State office, she received the response: “The loan rate for
           the farm is reduced by 30% so that would affect the LDP rate.” This message was then
           forwarded to all county office staff, including the program technician. Therefore the
           program technician and all county office staff who presented at the informational meetings
           had access to the correct information. We have confirmed this through email review. For
           subsequent meetings, the county executive director, district director, county committee
           members, and Montana State University (MSU) professors present do not remember a
           question or response explaining how LDPs would be affected for ACRE enrolled producers
           (see result X).

           The county extension agent also claimed to have been misinformed by the Sheridan County
           program technician assigned to ACRE, explaining that he met with her sometime in April
           and also in late July 2009. The county extension agent further claimed that during his
           meetings with the program technician, she confirmed that the producers would only lose 30
           percent of the LDP rate if he enrolled in ACRE. However, in the program technician’s letter
           to the county committee she explains that she met with the county extension agent in late July
           2009 in order to gain a better understanding of ACRE and that at that time, he reiterated his
           understanding of a 20-percent reduction in direct payments and 30-percent reduction in loan
           rates and 30-percent reduction in the LDP rate. During these meetings, the county extension
           agent claimed they went over payment scenarios using the ACRE calculator and discussed
           the basic triggers for ACRE. The county extension agent shared ACRE worksheets that
           provided examples of how ACRE would work with various commodities. He further claimed
           to have gone over the documents discussed and provided at the March meeting put on by the
           MSU extension professors, which included the PowerPoint used by the professors. The two
           also shared other basic ACRE information, including informational packets on ACRE from
           FSA fact sheets and a news article that promoted ACRE. There are no existing FSA
           documents which contain inaccurate information. Further, these documents do not directly
           address LDP calculation, but rather ACRE triggers.

IX.        Interview the county office employees (including the program technician and the county
           executive director) as to the origin of the apparent misinformation provided to the ACRE
           contract producers. Determine if they went over the CCC-509 Appendix explicitly with each
           producer before the producer signed the contract. Did the producers raise any concerns prior
           to signing the ACRE contracts? Determine the information the county office employees may
           have shared with the extension agent on ACRE.

           The program technician claimed that she neither discussed nor provided the amended
           CCC-509 Appendix, dated April 29, 2009, to ACRE enrollees at the time of enrollment. 13 We
           determined that in early February 2009, Sheridan County producers were mass-mailed an
           earlier version of the CCC-509 Appendix, dated November 14, 2009, with a cover letter
           indicating their responsibilities and a DCP contract. The program technician claimed that
           she did not believe that the CCC-509 Appendix, dated April 29, 2009, needed to be provided
           to ACRE producers at the time of enrollment because they had already received an earlier
      13
        However, our review of the ACRE files disclosed that two producers initialed and dated the CCC-509 Appendix,
      dated April 29, 2009, on the same day that they enrolled in ACRE. When presented with this evidence, the program
      technician modified her statement, claiming that she did not provide all producers with the Appendix on the day of
      enrollment.
     version of the appendix earlier in the year. However, the CCC-509 Appendix, dated April
     29, 2009, was amended to include information on ACRE and thus contained information
     specific to ACRE that the earlier CCC-509 Appendix, dated November 14, 2008, did not.
     The Appendix explained that producers would receive a 20-percent reduction in their DCP
     payments, a 30-percent reduction in their marketing assistance loan rate, and no
     counter-cyclical payments. Further, the Appendix included other ACRE-related provisions,
     including an explanation of ACRE-specific terminologies. She told the county committee that
     most of the ACRE enrollees wanted the information mailed to them later, when the office had
     time to provide copies of their ACRE contracts, which she intended to do once things slowed
     down in the office. Based on our interviews with producers and statement made by the
     program technician, it appears that producers received a copy of the Appendix either at the
     time of enrollment or afterwards in the mail.

     The district director discussed the CCC-509 Appendix, dated April 29, 2009, with the
     Sheridan County FSA Office staff to determine if producers enrolled in ACRE received a
     copy of the appendix. Interviews with the district director disclosed that the program
     technician claimed that no producer enrolled in ACRE received a copy of the amended
     CCC-509 Appendix, dated April 29, 2009, at the time of enrollment. We determined that
     another program technician made copies of the amended CCC-509 Appendix, dated April
     29, 2009, and provided them to the program technician in charge of ACRE for her use.
     When the district director met with the program technician in charge of ACRE, she did not
     have the provided copies of the CCC-509 Appendix, dated April 29, 2009. When asked what
     had been done with them, she replied that the copies must have been discarded.

     Only two producers expressed concern about how to calculate the LDP rates before time of
     enrollment. Through interviewing the program technician, we were able to support one
     producer’s claim that he asked the program technician repeatedly about how ACRE would
     impact LDPs. However, the program technician stated in our interview that she referred this
     producer to the Montana State FSA Office for answers to his specific questions. This
     producer no longer seeks to withdraw from ACRE. Another producer asked her if the LDPs
     would be reduced by 30 percent. As a producer in both Montana and North Dakota, he had
     spoken with county offices in both States to determine which State would be used for his
     triggers. The program technician stated in her interview that she asked the producer if he
     had spoken to a North Dakota county office regarding LDP calculation. The producer stated
     that he forgot to inquire but enrolled in ACRE regardless. This producer seeks to withdraw
     from ACRE.

     Regarding information that the county office may have provided the county extension agent
     on ACRE, please see results VIII and X.

X.   Interview MSU extension agents and clarify their role in providing information on ACRE.
     Also, since MSU extension agents were at the meeting where misinformation was allegedly
     provided, ascertain what information was provided and by whom.

     The MSU Extension Service is involved in producer education and outreach regarding farm
     programs. Our interviews disclosed that the MSU Extension Service discussed the idea of
      developing an educational program with FSA to inform producers about ACRE. However,
      the MSU Extension Service does not have a formal agreement or memorandum of
      understanding with FSA. The MSU Extension Service had complete control over developing
      an ACRE calculator that was provided to the general public in order for producers to use in
      making their decision on enrolling in ACRE. Our review of the ACRE calculator disclosed
      that the decision tool correctly calculated the LDP for a producer enrolled in ACRE by
      reducing the loan rate by 30 percent before subtracting the posted county price.

      The MSU Extension Service conducted an ACRE informational meeting on March 2, 2009 in
      Sheridan County. Approximately 50 to 60 producers were in attendance. The Sheridan
      County county executive director and other FSA staff were also in attendance. The MSU
      professors informed us that they did not provide an example of how an LDP would be
      affected by ACRE nor did they remember any discussions concerning the LDP at the
      informational meeting. We determined that during the presentation, the professors discussed
      basic information on ACRE, the Supplemental Revenue Assistance Payments Program, and
      other new items detailed in the new Farm Bill. They also presented a demonstration of the
      ACRE software calculator. We also determined that the professors provided the producers
      with the ACRE fact sheets which state that there would be a 30-percent reduction in the loan
      rate. The MSU Extension Service professors informed us that they did not answer any policy
      questions and further stated that if a question had been asked about how an LDP would be
      affected by ACRE, the professors would have forwarded the question to the FSA employees
      in attendance.

XI.   Interview the county committee members since the program technician stated that she made
      presentations to the CED and COC with the incorrect information, but neither the county
      committee members nor the county executive director corrected her.

      Our interviews with all four county committee members disclosed that they remember the
      program technician making a presentation to the county executive director and county
      committee concerning ACRE sometime in August 2009. The county committee members
      informed us that the program technician went over ACRE worksheets and handouts
      explaining the triggers and yields but they could not remember the program technician ever
      stating that an ACRE producer would receive a 30-percent reduction in the LDP rate. One
      of the county committee members stated that the program technician read the ACRE
      provisions from handouts and worksheets and remembered it being stated that a producer
      enrolled in ACRE would receive a 30-percent reduction in the loan rate and a 20-percent
      reduction in the direct payment but there were no discussion on how to calculate an LDP for
      an ACRE producer.
